APPENDIX A

United States v. Abbate
United States Court of Appeals for the Fifth Circuit
August 18, 2020, Filed
No. 19-10797
Reporter
970 F.3d 601 *; 2020 U.S. App. LEXIS 26267 **

Judgment affirmed as modified.
UNITED STATES OF AMERICA, Plaintiff — Appellee,
versus CHRISTOPHER J. ABBATE, Defendant —
Appellant.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:10-CR29-1.

United States v. Abbate, 435 Fed. Appx. 326, 2011 U.S. App.
LEXIS 15882 (5th Cir. Tex., July 29, 2011)

Case Summary

Counsel: For United States of America, Plaintiff - Appellee:
Joseph Andrew Magliolo, Esq., U.S. Attorney's Office,
Northern District of Texas, Dallas, TX.
For Christopher J. Abbate, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Northern
District of Texas, Lubbock, TX; Jason Douglas Hawkins,
Federal Public Defender, Federal Public Defender's Office,
Northern District of Texas, Dallas, TX.

Judges: Before DAVIS, JONES, And WILLETT, Circuit
Judges.

Overview
HOLDINGS: [1]-The special conditions of defendant's
supervised release were affirmed since the possession of
pornographic matter prohibition did not violate his due
process and First Amendment rights since the term was not
vague as the term pornography as used in the criminal context
provided courts the necessary commonsense understanding,
and as his vagueness challenge failed, so too did his First
Amendment overbreadth challenge, his second challenge also
failed that the pornography condition is overbroad because it
prohibited not only his possession of sexually explicit
material involving children but also that involving adults, and
the condition forbidding defendant from using or possessing
any gaming console or device was narrowed to those that
allowed for internet access without prior permission from the
probation officer.

Opinion
[*603] PER CURIAM:
Christopher Abbate challenges two special conditions of his
supervised release following the revocation of his first term of
supervised release. He argues a condition prohibiting
possession of pornographic matter is vague and overbroad in
violation of his due process and First Amendment rights, and
a condition prohibiting use of gaming consoles is overly
restrictive. We modify the gaming console condition but leave
the other conditions of his supervised release unchanged. We
therefore AFFIRM as MODIFIED the district court's
judgment.

I. BACKGROUND
In June 2010, Abbate pled guilty to possessing child
Outcome
Brandon Beck

Page 2 of 5
970 F.3d 601, *603; 2020 U.S. App. LEXIS 26267, **1
pornography.1 The district court sentenced [**2] him to 120
months of imprisonment, followed by a lifetime term of
supervised release. Less than a year after Abbate completed
his prison sentence, he violated the conditions of his
supervised release. The district court sentenced him to six
months of imprisonment, followed by another lifetime term of
supervised release. Abbate does not challenge the district
court's revocation of his supervised release.
Abbate does, however, challenge two terms of his supervised
release, which are now before us on review. First, he
challenges the term that provides he not have under his
control any "pornographic matter." Second, he challenges the
term that he "shall not use or possess any gaming consoles . . .
or devices, without prior permission from the probation
officer." Abbate objected to the pornography condition at the
hearing. He did not object to the gaming console condition.
He launched a timely appeal.

II. DISCUSSION
Abbate argues that the pornography condition is overbroad
and vague, in violation of his due process and First
Amendment rights. He also contends that the gaming console
condition is overly restrictive in violation of 18 U.S.C. §
3583(d). We address these concerns in turn.

A. The Pornography Condition
Abbate first [**3] asserts that the pornography condition of
his supervised release—that he cannot possess or have under
his control "any pornographic matter"—is impermissibly
vague in violation of his due process rights and overbroad in
violation of his First Amendment rights. Because Abbate
preserved his challenge at the sentencing hearing, we review
the district court's supervised release condition for abuse of
discretion.2

equal force to supervised release conditions.4 Even so, a lack
of specificity does not necessarily void the condition.5
"[W]hile a probationer is entitled to notice of what behavior
will result in a violation, so that he may guide his actions
accordingly," supervised release conditions "do not have to be
cast in letters six feet high, or to describe every possible
permutation, or to spell out every last, self-evident detail."6
Categorical terms are inevitable and can provide adequate
notice so long as there exists "a commonsense understanding
of what activities [**4] the categories encompass."7
Abbate argues that there is no commonsense understanding of
the categorical term "pornography." The question, then, is
whether a reasonable person can predict what materials
Abbate is and is not allowed to have.
We have not yet addressed the stand-alone term
"pornographic." But in United States v. Brigham, we
considered a condition of supervised release providing that
the defendant (Brigham) neither possess nor control "any
pornographic, sexually oriented or sexually stimulating
materials."8 The district court found Brigham violated the
conditions of his supervised release after viewing a videotape
of himself and his ex-girlfriend having sex.9 On appeal,
Brigham argued that the district court improperly applied the
condition, and that it was vague.10 Reviewing the issue on an
"as applied" basis for abuse of discretion, we rejected
Brigham's argument.11 We also emphasized that the
definitions of "child pornography" and "sexually explicit
conduct" set forth in 18 U.S.C. §§ 2256(2) and (8) offered
"some practical insight" into the condition's meaning.12
In United States v. Simmons, the Second Circuit used similar

4 United
5 See

It is a basic principle of due process that a statute may not be
"so vague [*604] that it fails to give ordinary people fair
notice of the conduct it punishes, or so standardless that it
invites arbitrary enforcement."3 This principle applies with

id.

6 Id.

at 166-67 (quoting United States v. Gallo, 20 F.3d 7, 12 (1st
Cir. 1994)) (quotation marks omitted).
7 Id.

at 167.

8 569

9 Id.
1 See

States v. Paul, 274 F.3d 155, 166 (5th Cir. 2001).

F.3d 220, 223 (5th Cir. 2009).

at 233.

18 U.S.C. §§ 2252(a)(2), 2252(a)(4)(B).
10 Id.

2 United

at 232.

States v. Fields, 777 F.3d 799, 802 (5th Cir. 2015).
11 Id.

3 Johnson

v. United States, 576 U.S. 591, 135 S. Ct. 2551, 2556, 192
L. Ed. 2d 569 (2015).

12 Id.

at 233.

Brandon Beck

Page 3 of 5
970 F.3d 601, *604; 2020 U.S. App. LEXIS 26267, **4
reasoning in interpreting the term "pornography."13 The court
there observed [**5] that, "[f]or purposes of evaluating
artistic or cultural merit, the term 'pornography' is notoriously
elusive," and that any effort to define the word is a
"subjective, standardless process, heavily influenced by the
individual, social, and cultural experience of the person
making the determination."14 But the court concluded that
this lack of clarity is "significantly eliminated in the context
of federal criminal law."15 As we did in Brigham, the court
cited to § 2256, which provides that "'child pornography'
means any visual depiction, including any photograph, film,
video, picture, or computer or computer-generated image or
picture, whether made or produced by electronic, mechanical,
or other means, of sexually explicit conduct."16 [*605] The
court reasoned that, when references to minors are omitted,
the child pornography law "defines the more general category
of pornography," thereby eliminating any vagueness
concerns.17
We agree with the Second Circuit.18 As difficult as it may be
to pin down a definition of the term "pornography" in artistic
contexts, that dilemma does not present itself here—the
criminal context provides us the necessary commonsense
understanding.19 Abbate's vagueness challenge [**6] fails
and, in turn, so does his First Amendment overbreadth
challenge.20

Abbate brings another First Amendment overbreadth
challenge: He argues that the pornography condition is
overbroad because it prohibits not only his possession of
sexually explicit material involving children but also that
involving adults. He stresses that there is no nexus between
adult pornographic matter and his offense (possession of child
pornography). Abbate preserved his challenge, so we review
for abuse of discretion.21
"A district court has wide discretion in imposing terms and
conditions of supervised release."22 That discretion, however,
has limits. "A special condition of supervised release . . . must
comply with § 3583(d) to survive a First Amendment
challenge."23 Pertinent here, § 3583(d) requires that a
supervised release condition result in no greater deprivation of
liberty than is reasonably necessary.24
When a defendant's crime is "sexual in nature," it is
"reasonable for the district court to restrict [the defendant's]
access to sexually stimulating material more broadly in an
effort to prevent future crimes or aid in his rehabilitation."25
And we have found a nexus between possession of legal adult
pornography and child pornography [**7] before.26 In United
States v. [*606] Miller, for example, we held that because
videos seized from the defendant's residence depicted both
nude adults and nude minors, his "interest in 'sexually

15 Id.

and, in turn, encompasses protected conduct, the vagueness and
overbreadth analysis invariably overlap. See Vill. of Hoffman Estates
v. Flipside, Hoffman Estates, Inc., 455 U.S. 489, 495 n.6, 102 S. Ct.
1186, 71 L. Ed. 2d 362 (1982) ("[A] court should evaluate the
ambiguous as well as the unambiguous scope of the enactment. To
this extent, the vagueness of a law affects overbreadth analysis.").

16 18

21 United

13 343

14 Id.

F.3d 72 (2d Cir. 2003).

at 81.

U.S.C. § 2256(8) (emphasis added). The same section also
defines "sexually explicit conduct" in detail (including sexual
intercourse, bestiality, masturbation, sadistic or masochistic abuse,
and lascivious exhibition of the anus, genitals, or pubic area). Id. §§
2256(2)(A) and (2)(B).

States v. Caravayo, 809 F.3d 269, 272 (5th Cir. 2015) (per

curiam).
22 Paul,

274 F.3d at 164.

23 Caravayo,
17 Simmons,

809 F.3d at 274.

343 F.3d at 82.
24 18

U.S.C. § 3583(d)(2).

18 See

also United States v. Bordman, 895 F.3d 1048, 1062 (8th Cir.
2018), cert. denied, 139 S. Ct. 1618, 203 L. Ed. 2d 902 (2019)
(terms "pornography" and "erotica" were not unconstitutionally
vague). But see United States v. Guagliardo, 278 F.3d 868, 872 (9th
Cir. 2002) (per curiam) (condition prohibiting defendant from
possessing any pornography was unconstitutionally vague); United
States v. Loy, 237 F.3d 251 (3d Cir. 2001) (holding that the term
"pornography," which can include the likes of Vladimir Nabokov's
Lolita and medical school textbooks, is vague and overbroad).
19 United

States v. Paul, 274 F.3d 155, 167 (5th Cir. 2001).

20 Because

Abbate alleges the supervised release condition is vague

25 United

States v. Ellis, 720 F.3d 220, 227 (5th Cir. 2013) (per

curiam).
26 United

States v. Miller, 665 F.3d 114, 136 (5th Cir. 2011); see also
United States v. McGee, 559 F. App'x 323, 329 (5th Cir. 2014)
(district court did not abuse its discretion in prohibiting defendant
with past history of child molestation from possessing or viewing
sexually arousing material—a restriction that was "a precaution,
purely protective"); Ellis, 720 F.3d at 227 (upholding, in a child
pornography case, a condition restricting possession of sexually
stimulating material because the crime was sexual in nature, and the
court sought to prevent future crimes and aid in his rehabilitation).

Brandon Beck

Page 4 of 5
970 F.3d 601, *606; 2020 U.S. App. LEXIS 26267, **7
stimulating' materials involving adults is intertwined with his
sexual interest in minors and thus, his offense."27
The record reveals that, like in Miller, Abbate's interest in
child pornography is intertwined with adult pornography.
Abbate's presentence report documented that he "owned
numerous adult pornographic movies with titles suggestive of
young participants." It also reported images on Abbate's hard
drive depicting children engaging in sexual acts with adults.
At the revocation hearing, Abbate's psychotherapist
determined that Abbate's possession of sexually explicit
material could result in recidivism.
It is "not difficult to infer" that Abbate's access to such
materials could "influence[] his subsequent behavior," putting
both his rehabilitation and the public at risk.28 Because it
complies with § 3583(d), the special condition survives
Abbate's First Amendment challenge.

B. The Gaming Console Condition
Abbate contends that the special condition prohibiting his use
or possession of "any gaming consoles" [**8] without prior
permission is overly restrictive in violation of § 3583(d)(2).
He argues that the condition involves a greater deprivation of
liberty than necessary. Since he did not object at the hearing,
we review for plain error.29
Under this standard, we apply a four-prong test to determine
if a trial court plainly erred.30 Abbate must identify (1) a
forfeited error, (2) that is clear and obvious, and (3) that
affected his substantial rights.31 If he satisfies those three
requirements, we may, in our discretion, remedy the error, but
"only if the error seriously affect[s] the fairness, integrity or
public reputation of judicial proceedings."32

The district court imposed a blanket ban on gaming consoles
after Abbate lied about getting rid of his internet-capable
PlayStation 4, in violation of his earlier supervised release
condition that he not use or own any device that allows
internet access. Abbate agrees that a prohibition on modern
devices that rely on internet connection is appropriate. He
only requests that we use our discretion to lessen the
condition's scope, such that it does not include consoles that
cannot access the internet.
We recently addressed a similar special condition in United
States [**9] v. Montanez.33 [*607] After Montanez pled
guilty to a single count of enticement of a child, the district
court imposed a condition restricting the use or possession of
any gaming console.34 On plain error review, we held that the
condition was overbroad, and narrowed it to its commonsense
construction: a prohibition on gaming consoles that allow
internet communication.35
The district court's obvious intent in imposing this special
condition was to prevent Abbate from using a gaming
console's internet-access features. A ban on all gaming
consoles does not achieve that purpose, and so, like in
Montanez, we use our discretion to modify the special
condition.36 We narrow the condition to forbid Abbate from
using or possessing any gaming console or device that allows
for internet access without prior [**10] permission from the
probation officer.

1770, 123 L. Ed. 2d 508 (1993)) (quotation marks omitted).
33 797

F.3d at 136. Although Miller was a plain error case, the court
held it would have reached the same conclusion "[e]ven were [it] to
review for an abuse of discretion." Id.

F. App'x 145 (5th Cir. 2019), cert. denied, 206 L. Ed. 2d 837,
2020 WL 1906695 (U.S. 2020). While an unpublished opinion issued
after January 1, 1996 is not controlling precedent in our circuit, we
may consider it as persuasive authority. See Ballard v. Burton, 444
F.3d 391, 401 n. 7 (5th Cir. 2006). And, if we have found plain error
in one case, we can infer plain error in another, factually analogous
case. See, e.g., United States v. Lozano, 791 F.3d 535, 539 (5th Cir.
2015) (relying on precedent of finding plain error in similar cases in
holding the district court committed plain error).

28 United

34 Id.

at 146, 150.

35 Id.

at 151-52.

27 665

States v. Sealed Juvenile, 781 F.3d 747, 756 (5th Cir.

2015).
29 United

States v. Weatherton, 567 F.3d 149, 152 (5th Cir. 2009).
36 We

30 United

States v. Escalante-Reyes, 689 F.3d 415, 419 (5th Cir.
2012) (en banc).
31 Puckett

v. United States, 556 U.S. 129, 135, 129 S. Ct. 1423, 173
L. Ed. 2d 266 (2009).
32 Id.

(quoting United States v. Olano, 507 U.S. 725, 736, 113 S. Ct.

have discretion to modify special conditions without vacating
or remanding to the district court. See 28 U.S.C. § 2106 (federal
appellate courts may "modify . . . any judgment, decree, or order of a
court lawfully brought before it for review"); Sealed Appellee v.
Sealed Appellant, 937 F.3d 392, 401 (5th Cir. 2019) (modifying the
judgment to "remove any doubt regarding the scope of the special
conditions and what they require of Appellant, leaving the other
special conditions unchanged").

Brandon Beck

Page 5 of 5
970 F.3d 601, *607; 2020 U.S. App. LEXIS 26267, **10
III. CONCLUSION
For the foregoing reasons, the district court's judgment is
AFFIRMED as MODIFIED.

End of Document

Brandon Beck

APPENDIX B

Case 4:10-cr-00029-A Document 80 Filed 07/11/19

Page 1 of 4 PageID 363

19-10797.223

Case 4:10-cr-00029-A Document 80 Filed 07/11/19

Page 2 of 4 PageID 364

19-10797.224

Case 4:10-cr-00029-A Document 80 Filed 07/11/19

Page 3 of 4 PageID 365

19-10797.225

Case 4:10-cr-00029-A Document 80 Filed 07/11/19

Page 4 of 4 PageID 366

19-10797.226

